Report No. SPO-2010-004               September 27, 2010




                2009 Evaluation of the DoD

         Federal Voting Assistance Program (FVAP)
      Inspector General                                                                                             Special Plans & Operations
                 United States Department of Defense                                                                 Our mission is to to provide assessment oversight that facilitates
                                                                                                                     informed, timely decision-making by senior leaders of the DoD and
                                                                                                                     the U.S. Congress, addressing priority national security objectives.
      Vision
         One professional team strengthening the integrity, efficiency, 

                   and effectiveness of the Department of Defense 
                                                  General Information
                               programs and operations. 

                                                                                                                       Forward questions or comments concerning this assessment and report and other
       Mission                                                                                                         activities conducted by the Office of Special Plans & Operations to spo@dodig.mil


         Promote integrity, accountability, and improvement of Department 
                                                               Deputy Inspector General for Special Plans & Operations
                                                                                                                                                Department of Defense Inspector General
             of Defense personnel, programs and operations to support the 

                                                                                                                                                           400 Army Navy Drive
                  Department's mission and serve the public interest.


                                                                                                                                                        Arlington, VA 22202-4704




                                                                                                                                               Visit us at www.dodig.mil


                                                                                                                       DEPARTMENT OF DEFENSE
The Department of Defense Inspector General is an independent, objective agency within the U.S. Department
of Defense that was created by the Inspector General Act of 1978, as amended. DoD IG is dedicated to serving
the warfighter and the taxpayer by conducting audits, investigations, inspections, and assessments that result in
improvements to the Department. DoD IG provides guidance and recommendations to the Department of
Defense and the Congress.
                                                                                                                       hot line                              make a difference
                                                                                                                                                                 800.424.9098
                                                                                                                                                                                 Report                        www.dodig.mil/hotline
                                                                                                                                                                                 Fraud, Waste, Mismanagement, Abuse of Authority
                                                                                                                                                                                 Suspected Threats to Homeland Security
                                                                                                                       Defense Hotline,The Pentagon, Washington, DC 20301-1900   Unauthorized Disclosures of Classified Information
This page intentionally left blank.
                              2009 Evaluation of the DoD Federal Voting Assistance Program
                                             September 27, 2010 Report No. SPO-2010-004


             Results in Brief: 2009 Evaluation of the
             DoD Federal Voting Assistance Program



What We Did.
Section 1566, Title 10, United States Code, “Voting assistance: compliance assessments;
assistance,” as amended, requires that the Inspectors General of the Army, the Navy, the
Air Force, and the Marine Corps conduct an annual review of the effectiveness of their
voting assistance programs; and an annual review of the compliance with voting
assistance programs of that Service. Upon the completion of their annual reviews, each
Service Inspector General is required to submit to the DoD Inspector General a report on
the results of each review. The statute requires that the DoD Inspector General submit to
Congress a report on the effectiveness during the preceding calendar year of voting
assistance programs, and the level of compliance during the preceding calendar year with
voting assistance programs as reported by each of the Service Inspectors General.

We met with each of the Service Inspectors General representatives to discuss their data
collection procedures, and criteria used as a basis for the determinations of compliance
and effectiveness of their respective voting assistance programs. We reviewed the
Federal Voting Assistance Program website and the 2010-2011Voting Assistance Guide.
Also, we reviewed actions taken by the Federal Voting Assistance Program Office to
implement certain provisions of the Military and Overseas Voter Empowerment (MOVE)
Act of 2009 that apply to the November 2010 Federal election. This report consolidates
the Service Inspectors General reports, summarizes some of their key facts, and presents
the results of our review.

What We Found.

The Service Inspectors General reported that their programs were effective and in
compliance with DoD regulations and public law, with a few minor exceptions they were
addressing. Data gathered by the Service Inspectors General for this report is consistent
with the format used for the 2007 and 2008 calendar years. Service Inspectors General
provided detailed Service-wide reporting in all five focus areas identified in DoD
Directive 1000.04, “Federal Voting Assistance Program (FVAP),” April 14, 2004.

The oversight programs of the FVAP Office and Services continue to identify
opportunities to improve effectiveness. The Services demonstrated in their oversight
                                            i
                               2009 Evaluation of the DoD Federal Voting Assistance Program
                                              September 27, 2010 Report No. SPO-2010-004

reports that they have made special efforts to ensure deploying and deployed personnel
were afforded every opportunity to vote.

Although the Service Inspectors General reported that their voting programs were
generally effective and compliant, there were a few reported deficiencies related to the
assignment and training of voting assistance officers.

 For example, the Army Inspector General reported that 39 of 74 reserve component units
did not have a voting assistance officer assigned. The Army Inspector General reported
that the Reserve Component Direct Reporting Unit was correcting this deficiency and
evaluating overall Reserve Component policy and compliance with DoDD 1000.04. The
Army Inspector General plans to follow-up on this matter during its 2010 evaluation of
the Army voting program.

Another issue reported, by the Naval Inspector General, was that only four percent of
Navy voting assistance officers documented that they completed training in 2009. This
was attributed to staff turnover but also the lack of FVAP Office on-site training, which is
only provided during even-numbered years when elections are held for Federal offices.

The Naval Inspector General reported that it will ensure all voting assistance officers
receive the required training and document training completion in the Navy Voting
Information Management System in time for the November 2010 Federal election. On-
site training by the FVAP Office planned for 2010 will assist Navy efforts to prepare its
personnel for this year’s Federal elections.

The Air Force Inspector General reported minor anomalies with training of voting
assistance officers, distribution of materials, and command and installation level
involvement.

The Marine Corps Inspector General reported compliance shortcomings in only 1 of 21
of its units inspected.

Details of the Service Inspectors General Reports are discussed and summarized in tables
included in this report.

We found that the FVAP website was up-to-date, accessible, and usable by voters, voting
assistance officers, and state and local election officials. The 2010-2011 Voting
Assistance Guide has been streamlined to target the voting assistance officers at unit and
installation levels. Also, we found that the FVAP Office has implemented provisions of
the MOVE Act regarding online database and Global Network information access that
apply to the November 2010 election.



                                             ii
                        2009 Evaluation of the DoD Federal Voting Assistance Program
                                       September 27, 2010 Report No. SPO-2010-004


Table of Contents
Results in Brief: 2009 Evaluation of the Federal Voting Assistance Program        i

       What We Did                                                                i

       What We Found                                                              i

Objective                                                                         1


Background                                                                        1


Service Inspector Generals Procedures                                             5


Effectiveness of Services’ Voting Assistance Programs                             8


Compliance of Services’ Voting Assistance Programs                               10 


Other Matters to be Reported                                                     16 



Appendices

      A.   USD (P&R) 2007 Memorandum                                             20 

      B.   Department of the Army Inspector General Report                       22 

      C.   Department of the Naval Inspector General Report                      39 

      D.   Department of the Air Force Inspector General Report                  51 

      E.   Marine Corps Inspector General Report                                 59 

      F.   Scope and Methodology                                                 75 

      G.   Announcement Memorandum                                               76 

      H.   Prior Coverage                                                        79 

      I.   Report Distribution                                                   80 

2009 Evaluation of the DoD Federal Voting Assistance Program
               September 27, 2010 Report No. SPO-2010-004




  This page intentionally left blank.
                                       2009 Evaluation of the DoD Federal Voting Assistance Program
                                                      September 27, 2010 Report No. SPO-2010-004


Objective
        The objective of this DoD IG evaluation of the FVAP for calendar year 2009 was
        to: (1) consolidate the Services’ FVAP assessment results into a single DoD-wide
        report for Congress; and (2) report the effectiveness and level of compliance of the
        Services’ voting assistance programs as reported by the Service Inspectors
        General. This DoD IG report consolidates the Service Inspectors General reports
        and summarizes their results. The four Service reports are enclosed at Appendices
        B, C, D, and E.

Background
        Legislation.

        Executive Order 12642 designated the Secretary of Defense as the Presidential Designee
        responsible for administering the Uniformed and Overseas Citizens Absentee Voting
        Act (UOCAVA1). The Executive Order authorizes the Secretary of Defense to
        delegate the responsibilities under the Act to other offices within the Department
        of Defense.

        Section 1566, Title 10, United States Code, “Voting assistance; compliance
        assessments; assistance,” as amended, specifies the voting assistance roles of the
        Department of Defense Inspector General and that of the Service Inspectors
        General. The statute specifies that the Service Inspectors General shall conduct an
        annual review of the effectiveness and compliance of their voting assistance
        programs, and upon completion, submit to the DoD Inspector General a report on
        the review results. The statute further specifies that the DoD Inspector General
        shall submit to Congress a report on the effectiveness and compliance of voting
        assistance programs during the preceding calendar year for the Army, Navy, Air
        Force, and Marine Corps, as reported by the Service Inspectors General.2


        Department of Defense Policy.

        Policies and instructions for the DoD Voting Assistance Program are described in
        DoD Directive 1000.04 (DoDD 1000.04), “Federal Voting Assistance Program


1
  Executive Order 12642, “Designation of the Secretary of Defense as the Presidential designee Under title 1 of the
Uniformed and Overseas Citizens Absentee Voting Act, June 8, 1988
2
  Title 10 United States Code, Section 1566

                                                         1

                       2009 Evaluation of the DoD Federal Voting Assistance Program
                                      September 27, 2010 Report No. SPO-2010-004

(FVAP),” April 14, 2004 (Certified current as of April 23, 2007). DoDD 1000.04
stipulates that the USD (P&R) administers the FVAP for the Secretary of Defense.
The USD (P&R) manages the program through the Office of the Director, Federal
Voting Assistance Program.

DoDD 1000.04 requires that Service unit-level voting assistance officers (VAO)
obtain and disseminate voting information, voting forms, registration forms, and
absentee ballot requests. VAOs are also required to personally assist voters for all
elections for Federal offices. Each Service is required to establish and maintain a
voting assistance website.

The FVAP Program Office determined that procedures outlined in the USD (P&R)
memorandum, “Guidance in Implementing Voting Assistance Programs,”
September 19, 2007 (Appendix A), would remain in effect for use in preparation
of the Service Inspectors General 2009 FVAP reports.

The USD (P&R) memorandum:
    	 States that guidance and direction should be used as a baseline and “may
       be adjusted to meet specific requirements and cultures within each
       Service.” It essentially grants Service leadership the authority to tailor
       certain requirements.
    	 Lowers grade requirements for assignment of VAOs. It provides
       flexibility to assign “quality individuals with enough authority as VAOs to
       get the job done.”
    	 Adjusts the ratio requirement for VAOs vs. unit population. It allows
       flexibility to the Services to adjust ratio to ensure coverage.
    	 Streamlines delivery of the Registration and Absentee Ballot Request
       Federal Post Card Application (FPCA), Form SF-76, by adding a provision
       to permit electronic distribution of FPCA and receipt verification in lieu of
       face-to-face contact.
    	 Clarifies the use of civilians as Installation VAOs (IVAOs), requesting
       their assignments be stabilized during the 18-month period from October
       of the year preceding a general election through March of the year
       following.




                                      2

                                       2009 Evaluation of the DoD Federal Voting Assistance Program
                                                      September 27, 2010 Report No. SPO-2010-004

           Service Regulations. Each Service supplements the DoD 1000.04 with Service-
           specific regulations and instructions:
               	 Army Regulation 608-20, “Army Voting Assistance Program,” October 28,
                  2004.
               	 Office of the Chief of Naval Operations Instruction 1742.1B, “Navy Voting
                  Assistance Program,” May 15, 2007.
               	 Air Force Instruction 36-3107, “Voting Assistance Program,” September
                  10, 2003.
               	 Marine Corps Order 1742.1A (with Changes 1-2), “Voter Registration
                  Program,” May 14, 2002.

           The Federal Voting Assistance Program. The mandate of the FVAP is to:
                   ensure that eligible voters receive . . . information about registration and
                   voting procedures and materials pertaining to scheduled elections,
                   including dates, offices, constitutional amendments, and other ballot
                   proposals.3

           Eligible voters include Service members, their spouses, and eligible family
           members world-wide, and eligible U.S. citizens residing overseas.

           Federal Voting Assistance Program Office. The Director, FVAP has the
           guiding role in voter outreach within the Federal Government. The FVAP
           program includes:
               	 The FVAP website (www.fvap.gov) provides up-to-date information on
                  absentee voting information to:

                       o	 Unit and Installation voting assistance officers

                       o	 Uniformed absentee voters, their spouses and eligible dependents

                       o	 State and local election officials

                       o	 U.S. voters residing overseas

               	 VAO training program—on-site (even years) and web-based (every year).
               	 A Voting Assistance Guide with State-by-State information.
               	 Support to State and local election officials, and VAOs.


3
    Paragraph 4.2, DoD Directive 1000.04 , “Federal Voting Assistance Program (FVAP),” April 14, 2004

                                                        3

                           2009 Evaluation of the DoD Federal Voting Assistance Program
                                          September 27, 2010 Report No. SPO-2010-004

The FVAP Program Office provided the following additional information for this
report.
   	 The office introduced its comprehensive website re-design in June 2008
      offering enhanced content and usability for applicants to register to vote
      and request an absentee ballot. It was again modified with the deployment
      of an online voter registration and absentee ballot application wizard.
   	 The office introduced enhancements to its website that provide military
      voters and their voting dependents, overseas DoD sponsored civilians and
      their overseas dependents, and U.S. citizens residing outside the U.S. with a
      self-service site to complete a FPCA for absentee ballot by marking the
      ballot online with voter’s choices for Federal candidates, and a self-service
      site to complete the Federal write-in absentee ballot.

The Voting Assistance Program Process. Figure 1 illustrates the major elements
of the Services’ Voting Assistance Programs and lists their primary functions.

                     Figure 1. Voting Assistance Program Elements
                                                                                   .
                                               Provide:
                                                  DoD Directive
                                                  VAO Training
                     USD (P&R)                    Voting Guide
                     FVAP Office                  FVAP Website
                                                  Program Oversight


                                               Provide:
      Military Services                           Service Instructions
          Military Services
               Military Services                  Service Websites
                    Military Services             Voting Materials
                                                  Service-level oversight


                    Installation &             Assign VAOs
                  Unit Commanders              Monitor VAO performance



                   Voting Assistance           Provide:
                    Officers (VAO)                Voting Information
                                                  Voting Materials
                                                  Training and Assistance

                 Uniformed Absentee
                 Voters & Dependents           Register and Vote



                         States                Compile Voting Results
                                               Administer Elections




                                         4

                              2009 Evaluation of the DoD Federal Voting Assistance Program
                                             September 27, 2010 Report No. SPO-2010-004

Review of Service IG Voting Assistance Program Review
Procedures
We met with each of the Service Inspectors General representatives to discuss data
collection procedures and criteria used as a basis for the determinations of compliance
and effectiveness of their respective voting assistance programs. All of the Service
Inspectors General use the reporting template developed by the DoD IG for consistency
in reporting. Based on information obtained from our interviews and a review of the
Service Inspectors General reports to the DoD IG for 2009, their data collection and
validation procedures, as presented, were adequate to evaluate the compliance and
effectiveness of each of the Service voting assistance programs.

Department of the Army Inspector General (DAIG)

The DAIG Inspections Division is responsible for collecting and summarizing data and
preparing the Army report submitted to the DoD IG. The DAIG performs data validation
through programmatic reviews of unit voting activity. Every year, the DAIG inspects a
sample of installation voting registration offices. The Army Forces Command is
inspected every year due to its recruiting and training mission. During Presidential
election years, 100% of the Army units are inspected for voting compliance.

Normally, the DAIG does not actually inspect units at the various sub-command levels
but reviews data reported by the Major Command IGs. In this manner, the DAIG serves
as a repository and consolidation point for Army-wide FVAP compliance. In 2010,
DAIG has been performing a two-phase systematic, programmatic inspection of the
Army voter assistance program prior to the November Federal election. The first phase
focused on compliance and data collection. The second phase is focusing on the conduct
of the Major and subordinate command inspections to ensure that validity of the data.

Within the DAIG, they have recently created an Analysis and Follow-Up branch. DAIG
completed reports are now transferred to that branch to be scanned for trends and issues,
as well as to ensure follow-up on reported deficiencies.

The DAIG measures compliance based on the DoD IG reporting template, which is
derived from the requirements set forth in DoD Directive 1000.04. The DAIG measures
effectiveness in terms of compliance with DoD Directive 1000.04 requirements,
evaluating whether the Army FVAP is enabling those responsible for the voting program
to carry out their mission. In addition, it conducts sensing sessions with Army personnel
to determine, for example, if they have had the opportunity to register to vote.




                                            5

                              2009 Evaluation of the DoD Federal Voting Assistance Program
                                             September 27, 2010 Report No. SPO-2010-004



Naval Inspector General

The Naval IG, Inspections Division, receives the summarized results from Echelon 2
Major Command inspections. Those 28 Major Commands perform inspections on their
subordinate commands annually. On an annual basis, the Naval IG specifically targets at
least two Major Commands and two geographical areas for inspection. During those
Major Command and geographic area inspections, voting program compliance is
assessed. The Naval IG also inspects geographical areas for “quality of life” of Service
members and their families. There is an overflap of inspection items covered in the
command and “quality of life” inspections, to include voting-related issues.

Online quality of life survey questions are sent out at least six weeks prior to the
inspection. The results of these voluntary, anonymous surveys enable Naval IG teams to
ensure that they are conducting accurate inspections. The Naval IG reported that 9,453
personnel anonymously responded to the 2009 survey.

Naval IG personnel indicated that these survey results provide useful and relevant data of
FVAP program performance for their annual FVAP reports. The Naval IG has employed
a dedicated research psychologist during the past year who analyzes and adjusts survey
questions to detect trends, ensure quality of data, and synthesize data results.

The Naval IG uses a combination of anonymous surveys, focus groups conducted during
IG visits, interviews conducted with unit leadership and selected unit members, and VAO
documentation reviewed during the IG visits to assess for both compliance and
effectiveness of the Navy voting program. The Naval IG reported that the Navy had a
satisfactory voting assistance program in terms of compliance and effectiveness for 2009.

Air Force Inspector General (SAFIG)

The SAFIG requires that Major Commands (MAJCOMS) inspect their subordinate
components at a minimum of once every three to three and a half years. A MAJCOM or
subordinate command may also perform no-notice inspections as required; these are
typically unit operational readiness or nuclear surety inspections.

The SAFIG obtains its data for annual FVAP reports to the DoD IG through the Standard
Air Force Inspection Process. Voting is covered as a major graded area during an Air
Force compliance inspection in accordance with AFI 90-201, para 3.3.1.7. MAJCOMS
and Air Force Agencies perform IG inspections on their subordinate components for
compliance. The SAFIG requires that MAJCOMS compile voting data for SAFIG use
completing annual FVAP reports. This data represents a wide sampling of units across
commands and geographic areas to gauge compliance. The SAFIG then inspects those

                                            6

                              2009 Evaluation of the DoD Federal Voting Assistance Program
                                             September 27, 2010 Report No. SPO-2010-004

MAJCOMS and Agencies. The SAFIG Inspections Division takes information from
those inspections and revises policy as necessary.

Subsequent to our discussions with Air Force IG personnel, the SAFIG Inspections
Policy and Assessment Branch Chief indicated that they would send out action officers to
complement MAJCOM IG teams conducting their respective, regularly scheduled
MAJCOM Compliance Inspections. During the months of September and October, these
action officers will specifically concentrate on the FVAP portions of the Command
Inspections.

The SAFIG inspects for compliance with DoD Directive 1000.04 and the Air Force
Voting Assistance Program Instruction. The Air Force goal for the 2010 election year is
to contact 100% of Air Force personnel (all active duty personnel, along with
civilians/contractors assigned overseas) and their voting age dependents, and to offer
assistance with voting registration and balloting.

Inspector General of the United States Marine Corps (MCIG)

The MCIG inspects Major Commands and commands without Commanding Generals
once every three years for FVAP compliance. The Major Command IGs normally
inspect their subordinate commands every other year. Inspections schedules do shift to
accommodate training and deployment cycles. The intent is to ensure that a deployed
unit is inspected before or immediately following deployment.

The MCIG collects data from the Automated Inspection Reporting System 210 Checklist
for the Marine Corps Voting Program. By using this system, each and every required
data item is reviewed, addressed, and documented within reporting channels. In addition,
the USMC Service Voting Action Officer or his designee accompany MCIG inspectors to
observe how they conduct inspections. They also review reports from previous
inspections to identify trends from reported issues, as well as to confirm corrections of
past deficiencies.

MCIG validates data by observing during field inspections how the data is collected, and
comparing the data collection method to past inspections. Program compliance is
measured based on the DoD IG reporting template criteria using the template and
compliance with Marine Corps policies. Program effectiveness is also measured by
comparing past deficiencies to current inspections and through sensing sessions with
individual Marines during inspections.




                                            7

                                     2009 Evaluation of the DoD Federal Voting Assistance Program
                                                    September 27, 2010 Report No. SPO-2010-004


Effectiveness of Services’ Voting Programs
The Service Inspectors General reported that their respective voting assistance programs
were effective and in compliance with DoD regulations.

	 The Army Inspector General conducted inspections at all levels of Army operations,
    which included an Army-wide assessment process. The breadth and depth of those
    reviews, along with their findings and recommendations for improvement supports
    their conclusion that the Army has an effective program. The Army reported,
        The US Army has an effective Voting Assistance Program. This assessment is based on
        the results of command and subordinate command IG inspections of the voting
        assistance programs of 10 major command headquarters and their senior voting
        assistance officers (SVAOs), 12 installation/garrison headquarters and their installation
        voting assistance officers (IVAOs), 80 brigade headquarters and select subordinate
        commands, 84 battalion headquarters, 47 companies, 62 research and development
        activities, 44 medical/dental/veterinarian headquarters and units, three academy staffs,
        and 11 installation tenants and activities, for a total of 353 units.4


	 The Naval Inspector General concluded that the Navy has a strong program and the
   Service is taking advantage of their history of “away at sea” logistical challenges to
   prepare for deployments by ensuring sailors are afforded every opportunity to vote.
   Their annual assessment included a we-based survey. The Navy reported,
        The Navy has a satisfactory Voting Assistance Program. This assessment is based on
        the results of three Echelon II Command Inspections, three geographic Area Visits, and
        94 unit level inspections and surveys conducted by Echelon II commands and their
        subordinate units during calendar year 2009.5


	 The Air Force Inspector General conducted inspections at 46 units and determined
   that FVAPs are in place and working effectively at all sites visited. The Air Force
   reported,
        During 2009 the USAF major command (MAJCOM) inspection teams inspected 46
        FVAPs at squadron, group, wing and command levels.…[A]s a result of the inspections
        conducted throughout 2009, we are confident FVAPs are established throughout the
        Air Force. 6




4
  U.S. Army IG Report at Appendix B
5
  U.S. Navy IG Report at Appendix C
6
  U.S. Air Force IG Report at Appendix D

                                                    8

                                      2009 Evaluation of the DoD Federal Voting Assistance Program
                                                     September 27, 2010 Report No. SPO-2010-004

	 The Marine Corps Inspector General conducted inspections of programs at 29 Marine
   Force Command, Marine Expeditionary Force, Installation, and Major Subordinate
   Command (MSC). Interviews, document reviews, and on-site inspections determined
   the effectiveness of the program. The Marine Corps had a straightforward, standard
   process (Mission Capable if compliant, or Non-Mission Capable if non-compliant, as
   determined during the inspection) for evaluating the FVAP. All units were found to
   be Mission Capable. Marines were reported to have been afforded every opportunity
   to exercise their right to vote. The Marine Corps reported,
          The results of the [Inspector General of the Marine Corps] Inspections … verify that
          the Marine Corps has an effective Voter Assistance Program. This assessment is based
          upon the results of 29 inspections; 2 MSC level, 6 at the installation level, and 21 at the
          unit level. The team reviewed documents and procedures to ensure compliance with all
          Marine Corps orders and directives. 7




7
    U.S. Marine Corps IG Report at Appendix E

                                                       9

                              2009 Evaluation of the DoD Federal Voting Assistance Program
                                             September 27, 2010 Report No. SPO-2010-004

Compliance of Services’ Voting Assistance Programs
   Summary. All four Services reported compliance with DoD Directive 1000.04
   requirements. Installation VAOs (IVAO) and Unit VAOs (UVAO) have specific
   duties and responsibilities under the Directive to ensure voters obtain voting
   information and materials in a timely fashion. There are five focus areas associated
   with the voting assistance program:

          	 Personnel Assignments - Assign quality individuals with enough authority
             as VAOs to manage the Voting Program.

          	 Training - Ensure VAOs are receiving required training to perform VAO
             duties.

          	 Material Distribution - Ensure adequate numbers of Standard Form 76
             (SF 76) are available for military members and their voting–age dependents
             to register and request a ballot.

          	 Communication and Information Network - Publicize and maintain a
             visible program.

          	 Commanders/Installation Level Involvement - Ensure there is an
             increased emphasis on the Voting Assistance Program and associated
             requirements.

In each of these areas, DoDD 1000.04 has multiple indicators of compliance. Service
Inspectors General provided Service-wide responses regarding compliance with these
focus areas—see the following Tables 1 through 5. As noted in some of the prefaces to
individual tables, there are a number of items enumerated in DoDD 1000.04 that are not
required to be reported in non-Federal (odd-numbered year) election years.




                                           10 

                                       2009 Evaluation of the DoD Federal Voting Assistance Program
                                                      September 27, 2010 Report No. SPO-2010-004

Personnel Assignments. The Service Inspectors General reported their programs were
compliant (see Table 1). For all Services, a number of VAOs did not meet DoDD
1000.04 requirement for rank/grade. They were, however, in compliance with guidance
provided in the USD (P&R) Memorandum on “Guidance in Implementing Voting
Assistance Programs,” September 19, 2007. This guidance allows flexibility in grade
requirements to favor assignment of VAOs who are interested and dedicated. The FVAP
plans to incorporate similar provisions in DoD Instruction 1000.04 when revised.

The Army Inspector General reported that 39 of 74 reserve component units did not have
a voting assistance officer assigned. However, he also stated that the Reserve
Component Direct Reporting Unit is addressing this deficiency and evaluating Reserve
Component policy and compliance with DoDD 1000.04, and that it will follow-up on this
matter during its 2010 evaluation of the Army voting assistance program.


                                 Table 1. Personnel Assignments

Item Requirement                       Authority     Army        Navy        Air Force         Marine
                                                                                               Corps

A.1   VAO assigned at the           DODD 1000.04,    Yes, 88%;   Yes, 65%;  Yes, w/1           Yes, all 29
      appropriate grade level.      Para 5.2.1.3 &   100%        100% w/USD exception of 46    commands
                                    USD(P&R)         w/USD       (P&R) Ltr  units inspected    inspected
                                    Guidance Ltr     (P&R) Ltr
A.2   Unit VAO assigned at level of DODD 1000.04,    Yes, 88% Yes, 100%      Yes               Yes, all 21
      command.                      Para 5.2.1.4.1            w/USD (P&R)                      units
                                                              Ltr                              inspected
A.3   Maximum number of voters         DODD 1000.04, Yes, 88% Yes, for all   Yes               Yes, all 29
      that can be represented by       Para 5.2.1.4.2         units                            commands
      VAO adhered to.                                         inspected                        inspected
A.4   Unit VAO of the rank 02/E-       DODD 1000.04, Yes, 87% Yes, two       Yes, with 1       Yes, all 21
      7/Civilian equivalent, or        Para 5.2.1.4.2         corrected      exception of 46   units
      above designated in writing                             during         units inspected   inspected
      for each unit of 25 or more                             inspection
      permanently assigned
      members.
A.5   Senior Service                   DODD 1000.04, Yes,        Yes; VADM   Yes; SES          Yes; NAF-
      Representative at Flag           Para 5.2.1.3  Brig Gen                                  O6/MAJGEN
      Rank/Civilian equivalent                                                                 (Ret)
      appointed.
A.6   Service Voting Action Officer.   DODD 1000.04, Yes,        Yes, O-4    Yes               Yes, YA-02
      Military person,                 Para 5.2.1.3  YA-02
      04/E8/Civilian equivalent, or
      above, appointed.
A.7   Commissioned Officer             UOCAVA         Yes, 87% Yes           Yes               Yes
      authorized to administer         DODD 1000.04,
      oath.                            Para 5.2.1.4.2




                                                    11 

                                    2009 Evaluation of the DoD Federal Voting Assistance Program
                                                   September 27, 2010 Report No. SPO-2010-004

Training. The Service Inspector Generals reported their programs were compliant (see
Table 2). All Services reported that they provided information to recruits, basic trainees,
and those deploying and deployed Service members. The Naval Inspector General
reported documented training for only four percent of the VAOs. The Navy attributed
this to normal attrition of VAOs and the start of an off-year election, and assured that all
VAOs will receive and document training in 2010. Items B.2 and B.6 were not required
in 2009, an odd numbered, non-Federal election year.

                                               Table 2. Training

                                                                                                     Marine
Item   Requirement                Authority          Army           Navy             Air Force
                                                                                                     Corps

B.1    VAOs received              Title 10,          Yes, 86% of    No, 4%,          Yes, w/5        Yes, 20 of
       training.                  Subtitle A, Part   inspected      attributed to    exceptions of   21 units
                                  II, Chapter 80,                   off-year         46 units        inspected
                                  Section 1566,                     election         inspected
                                  Para f(1)
B.2    MAJCOM, installations      DODD               Not            Not              Not             Not
       and Unit VAO attend        1000.04, Para      Applicable     Applicable       Applicable      Applicable
       FVAP workshop during       5.2.1.15
       even numbered years
       with Federal elections.
B.3    Basic training and         DODD               Yes, 100% of   Yes, during      Yes, w/1        Yes,
       command courses            1000.04, Para      inspected      basic training   exception of    training at
       emphasize and              5.2.1.14                          & command        46 units        all levels
       advertise voting                                             courses          inspected
       assistance programs.
B. 4   Train units preparing      DODD               Yes, 100% of   Yes, Pre-        Yes             Yes, during
       for deployment.            1000.04, Para      inspected      Overseas                         all pre-
                                  5.2.1.14                          Movement                         deployment
                                                                    Checklist &                      briefing
                                                                    deployment
                                                                    briefings
B.5    Recruitment personnel      DODD               Yes, 98% of    Yes              Yes, w/3        Yes
       informed of policies       1344.13, Para      inspected                       exceptions of
       and received training      5.4.2                                              46 units
       to carry out voter                                                            inspected
       registration assistance.


B. 6   Train Service              DODD               Not            Not              Not             Not
       members on absentee        1000.04, Para      Applicable     Applicable       Applicable      Applicable
       registration and voting    5.2.1.14
       procedures in Federal
       Election years.




                                                     12 

                                    2009 Evaluation of the DoD Federal Voting Assistance Program
                                                   September 27, 2010 Report No. SPO-2010-004

Material Distribution. The Service Inspector Generals reported their programs were
compliant (see Table 3). All Services noted challenges in meeting deadlines to provide
information and materials to forward-deployed personnel.

                                           Table 3. Material Distribution

Item   Requirement             Authority          Army           Navy             Air Force       Marine Corps


C.1    UVAOs hand-             DODD               Yes, 86% by    Yes, 94%         Yes, w/5        Yes, 20 of 21
       deliver SF76s to        1000.04, Para      deadline                        exceptions of   units
       eligible voters by      5.2.1.6.1 &                                        46 units        inspected
       15 January 2009.        5.2.1.5.3                                          inspected
       Develop a system
       to ensure in-hand
       delivery.
C.2    National Voter          Title 10,          Yes, 100%      Yes, 100%,       Yes, w/3        No, not in all
       Registration form       Subtitle A, Part   of inspected   during boot      exceptions of   cases;
       made available to       II, Chapter 80,                   camp             46 units        identified
       enlistees.              Section 1566,                                      inspected       during
                               Para i(2)                                                          inspection
C.3    Network                 DODD               Yes, 88% of    Yes, both        Yes             Yes
       established to          1000.04, Para      inspected      electronically
       distribute voter        5.2.1.5.2                         and hard
       information.                                              copy
C.4    Special day             DODD               Yes, 91%       Yes              Yes             Yes
       designated for          1000.04, Para
       dissemination of        5.2.1.11
       voter information
       and material.
C.5    Prospective             DODD               Yes, 100%      Yes              Yes             No, not in all
       enlistees provide a     1344.13, Para      of inspected                                    cases;
       DD Form 2644            5.4.4.1                                                            identified
       "Mail Voter                                                                                during
       Registration                                                                               inspection
       Application" and
       DD Form 2645
       "Voter registration
       Information.
C.6    Recruitment offices     DODD               Yes, 100%      Yes              Yes             Yes
       transmit registration   1344.13,Para       of inspected
       applications in a       5.4.4.3
       timely manner.
C.7    Sufficient voting       DODD               Yes, 88% of    Yes              Yes             Yes, 25 of 27
       materials are on-       1000.04, Para      inspected                                       units
       hand.                   5.2.1.7                                                            inspected




                                                    13 

                                     2009 Evaluation of the DoD Federal Voting Assistance Program
                                                    September 27, 2010 Report No. SPO-2010-004


Communication and Information Network. The Service Inspectors General reported
their programs were compliant (see Table 4). The Services reported that they ensured the
VAO Program was highly visible and publicized. For Item D.4, in locations where a unit
was unable to have the telephone number listed with the base operator, the Services
stated that their websites contained contact information. The Service Inspectors General
reports indicate that efforts were made at all levels to ensure voting assistance was
available and publicized.

                               Table 4. Communication and Information Network

                                                                                                 Marine
Item   Requirement                   Authority       Army            Navy          Air Force
                                                                                                 Corps

D.1    Voting Assistance             DODD            Yes, 70% of     Yes           Yes           Yes
       internet homepage is          1000.04 Para    major
       maintained that includes      5.2.1.10        commands
       names and links to                            inspected
       VAOs, procedures to
       order voting materials
       and links to other
       Federal & State voting
       websites.
D.2    Designated location on        DODD            Yes, 96% of     Yes,          Yes           Yes, 100% of
       base, installation, or ship   1000.04,        inspected       location                    inspected
       where voting material &       Para 5.2.1.10                   varies by
       assistance is available.                                      command
D.3    Established and               DODD            Yes, 100% of    Yes           Yes           Yes
       published a special           1000.04,        major
       telephone service, the        Para 5.2.1.12   commands
       "Voting Action Line," to                      inspected
       link Unit VAOs with
       Service VAOs.
D.4    Provide telephone             DODD            Yes, 61% of     Yes, posted   Yes, w/3      Yes, 24 of 27
       operators at every            1000.5, Para    inspected       on internet   exceptions    units
       military installation with    5.2.1.13        had done this   when          of 46 units   inspected
       names, e-mail addresses                                       command       inspected
       and telephone number of                                       lacks base
       Unit and Installation                                         operator
       VAOs.




                                                     14 

                                    2009 Evaluation of the DoD Federal Voting Assistance Program
                                                   September 27, 2010 Report No. SPO-2010-004

Commanders/Installation Level Involvement. The Service Inspectors General
reported their programs were compliant (see Table 5). The Service Inspectors General
reported that commanders at all levels understood and supported the voting program;
ensuring personnel had every opportunity to exercise their right to vote.


                              Table 5. Commanders/Installation Level Involvement

                                                                                                 Marine
Item   Requirement                 Authority   Army           Navy               Air Force
                                                                                                 Corps


E.1    MAJCOMS, etc.,              DODD        Yes, 100% of   Yes                Yes, w/1        Yes, 5 of 6
       continually evaluate        1000.04     major                             exception of    Commanding
       voting programs.            Para        commands                          46 units        Generals
                                   5.2.1.9     inspected                         inspected       inspected
E.2    Command-wide                DODD        Yes, 100% of   Yes                Yes, w/2        Yes
       awareness &                 1000.04,    major                             exceptions of
       assistance program          Para        commands                          46 units
       and activities are          5.2.1.11    inspected                         inspected
       developed during
       Armed Forces Voters
       Week.
E.3    Written policies to         DODD        Yes, 100% of   Yes, included in   Yes, w/2        Yes
       support eligible military   1000.04,    major          Navy Voting        exceptions of
       members and their           Para        commands       Instruction        46 units
       dependents.                 5.2.1.1     inspected                         inspected

E.4    Installation level          DODD        Yes, 100% of   Yes, in Navy       Yes             Yes
       reviews/inspections.        1000.04,    major          Voting
                                   Para        commands       Instruction and
                                   5.2.1.8     and            self-assessment
                                               installation   checklists
                                               VAOs
                                               inspected
E.5    VAO's performance is        DODD        Yes, 87% of    Yes                Yes, w/1        Yes, 100% of
       documented in the           1000.04,    inspected                         exception of    inspected
       Evaluation.                 Para                                          46 units
                                   5.2.1.16                                      inspected




                                                   15 

                              2009 Evaluation of the DoD Federal Voting Assistance Program
                                             September 27, 2010 Report No. SPO-2010-004

Other Matters to be Reported
Implementation of MOVE Act Provisions
Passage of the Military and Overseas Voter Empowerment (MOVE) Act of 2009, as
incorporated into the National Defense Authorization Act of 2010, required that the DoD
Federal Voting Assistance Program Office complete the following actions to support the
November 2010 Federal elections.

        	 Requirement: The FVAP must maintain a public online database that
           includes State contact information for Federal elections.

            FVAP Action: This online data base is incorporated into the FVAP website
            (www.fvap.gov) and includes the 2010-2011 Voting Assistance Guide,
            available as a portable document format (PDF) with addendum for changes
            after printing. It supports the voter assistance process as part of the dialogue
            with uniformed Service members, their voting age dependents, and citizens
            residing outside the United States. The online database contains State and
            local election officials’ contact information, and specific State and local
            instructions.

        	 Requirement: The FVAP must develop online portals to inform absent
           uniformed service voters and provide them with voter registration
           information and resources through the military Global Network.

            FVAP Action: The redesigned FVAP website (www.fvap.gov) provides
            that portal. It is available on the Internet and on the military Nonsecure
            Internet Protocol Router Network (NIPRNET). In addition to the internet
            portal, since July 15 and until election day, customer service is available
            24/7 by phone, email, and online chat for voters, VAOs and election
            officials.

        	 Requirement: The FVAP must establish a program to provide absent
           uniformed voters with voter registration information and resources through
           the military Global Network.

            FVAP Action: The website has been designed to coach a prospective voter
            through the process using an automated assistant to register to vote or to
            prepare the ballot request online. Alternatively, it will allow the prospective
            voter to obtain the registration or ballot request for manual completion.



                                            16 

                               2009 Evaluation of the DoD Federal Voting Assistance Program
                                              September 27, 2010 Report No. SPO-2010-004



The Federal Voting Assistance Portal (www.fvap.gov)
The home page is organized so as to enable a potential voter to quickly understand how
to use the site.

The “wizard” for registration and requesting a ballot is usable for anyone who needs to
register to vote or request a ballot. The customer service center has been staffed around
the clock (24/7) since July 15th and will be until Election Day (1-800-438-VOTE). The
FVAP Program Office continues to seek feedback for improvements from users of the
FVAP Portal.

The section for Voting Assistance Officers has been re-designed to be immediately
useful to the newly assigned as well as experienced VAO.

Particularly noteworthy are the sections on Continuity Folders used to facilitate turn-over
of duties when changes occur. They are provided for both the Unit VAO and the
Installation VAO, enumerating the reference materials that the VAO should have at their
disposal and that should be part of the transfer of duty responsibilities to an assigned
replacement or assistant. Included are links for the VAO to follow to obtain the items
from the FVAP, Services or other sources including:

             Current Voting Assistance Guide

             Absentee Voting Forms (FPCA, FWAB) 

             VAO Designation Letter 

             Election Dates Calendar

             Absentee Voting Brochure

             Good Ideas and Lessons Learned 

             Voting News Releases 

             Information on Voter Activities 

             VAO Training Certificate 

             Service Voting Action Officer Contact Information 

             DoD and Service Directives and Guidance 

             Measures of Performance 


Voting Assistance Guide 2010-2011
The 2010-2011 Voting Assistance Guide provides a significant enhancement to the
previous version(s). It is written from the perspective of the constituency served (citizens
seeking to vote and VAOs). There is also an errata sheet online containing changes made


                                            17 

                                2009 Evaluation of the DoD Federal Voting Assistance Program
                                               September 27, 2010 Report No. SPO-2010-004

after the guide was printed. Additionally, the changed information is provided online by
State.

The printed version of the 2010-2011 Voting Assistance Guide is distributed within DoD
FVAP election channels. It is also available online in downloadable portable document
format (PDF). The size of the Voting Assistance Guide was reduced from 466 pages in
the 2008-2009 edition to 296 pages in the 2010-2011 edition. The 2010-2011 edition is
structured to work through the process of registering, requesting a ballot, and voting. The
reference material online is continuously updated with changes as they occur and are
reported to the FVAP Program Office.

Voting Assistance Marketing and Outreach
In addition to the Service information dissemination, The FVAP Program Office has an
active advertising campaign publicizing the website in media such as, Stars and Stripes,
Military Spouses Magazine, and the International Herald Tribune. The FVAP Program
Office is also undertaking an aggressive online advertising and social media outreach
campaign, using Facebook and search engine advertisements to drive voters to the
FVAP.gov website, and social media programs to provide real-time voting assistance
updates to voters, election officials, and VAOs. Finally, in accordance with the MOVE
Act, FVAP has sent out emails to all military personnel 90, 60, and 30 days before the
election, focusing on registration, online tools, and timely return of ballots, respectively.

Government Accountability Report
In response to a Congressional request, the Government Accountability Office (GAO)
conducted a review from June 2009 through May 2010, (reported in GAO-10-476, June
17, 2010), to evaluate the extent to which the FVAP: (1) has addressed its mission and
evaluated the effectiveness of its efforts to conduct that mission; (2) put processes in
place to help ensure that its budget priorities are aligned with its strategic plans and goals;
and (3) implemented recommendations made from 2001 through 2009 by the DOD
Office of Inspector General and GAO. The GAO reviewed UOCAVA and DOD
Directive 1000.04 to identify specific Federal responsibilities for absentee voting and
compared those responsibilities with actions taken by FVAP.

To assess the effectiveness of FVAP’s efforts to conduct its mission, the GAO reviewed
FVAP data gathering procedures and measures obtained from FVAP and from published
reports (e.g., FVAP, and DOD Office of Inspector General, and non-governmental
organizations). The GAO assessed the reliability of the data analyzed by reviewing
existing documentation related to the data sources and by interviewing knowledgeable
agency officials about the data they used. The GAO reported that “We found the data
sufficiently reliable for the purposes of this report.”

                                              18 

                              2009 Evaluation of the DoD Federal Voting Assistance Program
                                             September 27, 2010 Report No. SPO-2010-004

The GAO concluded that FVAP has efforts underway to address requirements in DoD
guidance, but evaluation of those efforts yielded data of varying quality. GAO reported
that while FVAP improved some of its evaluative methodologies, GAO identified
concerns with FVAP post-election surveys and also FVAP “measures of success.” In
addition, GAO concluded that better information by FVAP, such as an assessment of
Voting Assistance Officer training, would enable FVAP to enhance its efforts to be
effective and efficient.

The GAO report contained three recommendations to DoD: (1) assess its methodologies
currently in use to gather evaluative information; (2) implement, where needed, improved
and supplemental program evaluation methodologies; and (3) evaluate current and
alternative methods for training Voting Assistance Officers. The USD (P&R) concurred
with recommendations (1) and (3), and partially concurred with recommendation (2),
advising of corrective actions that are already underway and those that it plans to take in
response to the GAO recommendations. The DoD IG will conduct follow-up oversight.
The GAO report, which includes the DoD response, can be found in its entirety at
www.gao.gov.




                                            19 

                   2009 Evaluation of the DoD Federal Voting Assistance Program
                                  September 27, 2010 Report No. SPO-2010-004

Appendix A – USD (P&R) 2007 Memorandum 





                                20 

                     2009 Evaluation of the DoD Federal Voting Assistance Program
                                    September 27, 2010 Report No. SPO-2010-004




Appendix B. Department of the Army Inspector General Report



                                  21 

                     2009 Evaluation of the DoD Federal Voting Assistance Program
                                    September 27, 2010 Report No. SPO-2010-004

Appendix B – Department of the Army Inspector General Report




                                  22 

2009 Evaluation of the DoD Federal Voting Assistance Program
               September 27, 2010 Report No. SPO-2010-004




             23 

2009 Evaluation of the DoD Federal Voting Assistance Program
               September 27, 2010 Report No. SPO-2010-004




             24 

2009 Evaluation of the DoD Federal Voting Assistance Program
               September 27, 2010 Report No. SPO-2010-004




             25 

2009 Evaluation of the DoD Federal Voting Assistance Program
               September 27, 2010 Report No. SPO-2010-004




             26 

2009 Evaluation of the DoD Federal Voting Assistance Program
               September 27, 2010 Report No. SPO-2010-004




             27 

2009 Evaluation of the DoD Federal Voting Assistance Program
               September 27, 2010 Report No. SPO-2010-004




             28 

2009 Evaluation of the DoD Federal Voting Assistance Program
               September 27, 2010 Report No. SPO-2010-004




             29 

2009 Evaluation of the DoD Federal Voting Assistance Program
               September 27, 2010 Report No. SPO-2010-004




             30 

2009 Evaluation of the DoD Federal Voting Assistance Program
               September 27, 2010 Report No. SPO-2010-004




             31 

2009 Evaluation of the DoD Federal Voting Assistance Program
               September 27, 2010 Report No. SPO-2010-004




             32 

2009 Evaluation of the DoD Federal Voting Assistance Program
               September 27, 2010 Report No. SPO-2010-004




             33 

2009 Evaluation of the DoD Federal Voting Assistance Program
               September 27, 2010 Report No. SPO-2010-004




             34 

2009 Evaluation of the DoD Federal Voting Assistance Program
               September 27, 2010 Report No. SPO-2010-004




             35 

2009 Evaluation of the DoD Federal Voting Assistance Program
               September 27, 2010 Report No. SPO-2010-004




             36 

2009 Evaluation of the DoD Federal Voting Assistance Program
               September 27, 2010 Report No. SPO-2010-004




             37 

2009 Evaluation of the DoD Federal Voting Assistance Program
               September 27, 2010 Report No. SPO-2010-004




             38 

                     2009 Evaluation of the DoD Federal Voting Assistance Program
                                    September 27, 2010 Report No. SPO-2010-004

Appendix C - Department of the Naval Inspector General Report




                                  39 

2009 Evaluation of the DoD Federal Voting Assistance Program
               September 27, 2010 Report No. SPO-2010-004




             40 

2009 Evaluation of the DoD Federal Voting Assistance Program
               September 27, 2010 Report No. SPO-2010-004




             41 

2009 Evaluation of the DoD Federal Voting Assistance Program
               September 27, 2010 Report No. SPO-2010-004




             42 

2009 Evaluation of the DoD Federal Voting Assistance Program
               September 27, 2010 Report No. SPO-2010-004




             43 

2009 Evaluation of the DoD Federal Voting Assistance Program
               September 27, 2010 Report No. SPO-2010-004




             44 

2009 Evaluation of the DoD Federal Voting Assistance Program
               September 27, 2010 Report No. SPO-2010-004




             45 

2009 Evaluation of the DoD Federal Voting Assistance Program
               September 27, 2010 Report No. SPO-2010-004




             46 

2009 Evaluation of the DoD Federal Voting Assistance Program
               September 27, 2010 Report No. SPO-2010-004




             47 

2009 Evaluation of the DoD Federal Voting Assistance Program
               September 27, 2010 Report No. SPO-2010-004




             48 

2009 Evaluation of the DoD Federal Voting Assistance Program
               September 27, 2010 Report No. SPO-2010-004




             49 

2009 Evaluation of the DoD Federal Voting Assistance Program
               September 27, 2010 Report No. SPO-2010-004




             50 

                      2009 Evaluation of the DoD Federal Voting Assistance Program
                                     September 27, 2010 Report No. SPO-2010-004

Appendix D - Department of the Air Force Inspector General Report




                                   51 

2009 Evaluation of the DoD Federal Voting Assistance Program
               September 27, 2010 Report No. SPO-2010-004




             52 

2009 Evaluation of the DoD Federal Voting Assistance Program
               September 27, 2010 Report No. SPO-2010-004




             53 

2009 Evaluation of the DoD Federal Voting Assistance Program
               September 27, 2010 Report No. SPO-2010-004




             54 

2009 Evaluation of the DoD Federal Voting Assistance Program
               September 27, 2010 Report No. SPO-2010-004




             55 

2009 Evaluation of the DoD Federal Voting Assistance Program
               September 27, 2010 Report No. SPO-2010-004




             56 

2009 Evaluation of the DoD Federal Voting Assistance Program
               September 27, 2010 Report No. SPO-2010-004




             57 

2009 Evaluation of the DoD Federal Voting Assistance Program
               September 27, 2010 Report No. SPO-2010-004




             58 

                              2009 Evaluation of the DoD Federal Voting Assistance Program
                                             September 27, 2010 Report No. SPO-2010-004

Appendix E - Marine Corps Inspector General Report




                                            59 

2009 Evaluation of the DoD Federal Voting Assistance Program
               September 27, 2010 Report No. SPO-2010-004




             60 

2009 Evaluation of the DoD Federal Voting Assistance Program
               September 27, 2010 Report No. SPO-2010-004




             61 

2009 Evaluation of the DoD Federal Voting Assistance Program
               September 27, 2010 Report No. SPO-2010-004




             62 

2009 Evaluation of the DoD Federal Voting Assistance Program
               September 27, 2010 Report No. SPO-2010-004




             63 

2009 Evaluation of the DoD Federal Voting Assistance Program
               September 27, 2010 Report No. SPO-2010-004




             64 

2009 Evaluation of the DoD Federal Voting Assistance Program
               September 27, 2010 Report No. SPO-2010-004




             65 

2009 Evaluation of the DoD Federal Voting Assistance Program
               September 27, 2010 Report No. SPO-2010-004




             66 

2009 Evaluation of the DoD Federal Voting Assistance Program
               September 27, 2010 Report No. SPO-2010-004




             67 

2009 Evaluation of the DoD Federal Voting Assistance Program
               September 27, 2010 Report No. SPO-2010-004




             68 

2009 Evaluation of the DoD Federal Voting Assistance Program
               September 27, 2010 Report No. SPO-2010-004




             69 

2009 Evaluation of the DoD Federal Voting Assistance Program
               September 27, 2010 Report No. SPO-2010-004




             70 

2009 Evaluation of the DoD Federal Voting Assistance Program
               September 27, 2010 Report No. SPO-2010-004




             71 

2009 Evaluation of the DoD Federal Voting Assistance Program
               September 27, 2010 Report No. SPO-2010-004




             72 

2009 Evaluation of the DoD Federal Voting Assistance Program
               September 27, 2010 Report No. SPO-2010-004




             73 

2009 Evaluation of the DoD Federal Voting Assistance Program
               September 27, 2010 Report No. SPO-2010-004




             74 

                           2009 Evaluation of the DoD Federal Voting Assistance Program
                                          September 27, 2010 Report No. SPO-2010-004


Appendix F - Scope and Methodology

    Service Reporting: The John Warner National Defense Authorization Act for
    Fiscal Year 2007 amended Section 1566, 10 U.S.C., eliminating the requirement
    for unannounced DoD IG assessments at ten DoD installations. The statute now
    requires the Inspectors General of the Army, the Navy, the Air Force, and the
    Marine Corps to conduct an annual review of the effectiveness of voting assistance
    programs, and an annual review of the compliance with voting assistance
    programs of their Service. Upon the completion of their annual reviews, each
    Service Inspector General is required to submit a report on the results of such
    reviews to the DoD IG. The statute requires that the DoD IG submit to Congress a
    report on the effectiveness and the level of compliance during the preceding
    calendar year of the voting assistance programs of each of the Services. The DoD
    IG did not independently verify or validate the Service Inspectors General reports.
    This report consolidates the results of the Service Inspectors Generals evaluations.

    We reviewed the Service Inspectors General reports on the effectiveness and
    compliance of their voting assistance programs. The Service Inspectors General
    provided detailed Service-wide compliance reporting in all five compliance focus
    areas identified in DoD Directive 1000.04, “Federal Voting Assistance Program
    (FVAP),” April 14, 2004. The DoD IG developed a template based on DoDD
    1000.04 in 2006 for reporting in five survey areas: (1) Personnel Assignments; (2)
    Training, (3) Voting Material Distribution; (4) Communication and Information
    Network; and (5) Commanders/ Installation Level Involvement. The template was
    used in 2007, 2008, and 2009 to standardize reporting the Services reporting.

    We also examined the new features of the FVAP website that now provides
    military voters and their voting dependents, overseas DoD sponsored civilians and
    their overseas dependents, and other United States citizens overseas with a self-
    service site to register and request an absentee ballot. At the time of our review
    the features were under development, and now have been incorporated in into the
    FVAP website.




                                         75 

                   2009 Evaluation of the DoD Federal Voting Assistance Program
                                  September 27, 2010 Report No. SPO-2010-004


Appendix G – Announcement Memorandum 





                                76 

2009 Evaluation of the DoD Federal Voting Assistance Program
               September 27, 2010 Report No. SPO-2010-004




             77 

2009 Evaluation of the DoD Federal Voting Assistance Program
               September 27, 2010 Report No. SPO-2010-004




             78 

                               2009 Evaluation of the DoD Federal Voting Assistance Program
                                              September 27, 2010 Report No. SPO-2010-004


Appendix H – Prior Coverage


      During the last 5 years, the Government Accountability Office (GAO), DoD, and the
      Department of State have issued reports on FVAP and overseas absentee voting.
      Unrestricted GAO reports can be accessed over the Internet at www.gao.gov.
      Unrestricted DoD IG reports can be accessed at www.dodig.mil/audit/reports and
      www.dodig.mil/Inspections/IE/Reports.htm

GAO
      GAO Report No. GAO-07-774, Elections: Action Plans Needed to Fully Address
      Challenges in Electronic Absentee Voting Initiatives for Military and Overseas Citizens,
      June 14, 2007

      GAO Report No. GAO-06-1134T, Testimony Before the Committee on Armed Services,
      United States Senate, “Elections: DOD Expands Voting Assistance to Military Absentee
      Voters, but Challenges Remain,” September 28, 2006

      GAO Report No. GAO-06-521, “Elections: Absentee Voting Assistance to Military and
      Overseas Citizens Increased for the 2004 General Election, but Challenges Remain,”
      April 7, 2006

DoD
      Dod IG Report No. IE-2009-005, “2008 Evaluation of the DoD Voting Assistance
      Program,” April 30, 2009;

      DoD IG Report No. IE-2008-002, “2007 Evaluation of the Federal Voting Assistance
      Program in the Department of Defense,” March 31, 2008

      DoD IG Report No. IE-2007-004, “2006 Evaluation of the Voting Assistance Program,”
      March 31, 2007

      DoD IG Report No. IE-2006-001, “Evaluation of the Voting Assistance Program,”
      March 31, 2006

      DoD IG Report No. IE-2005-001, “Evaluation of the Voting Assistance Program,”
      March 31, 2005




                                             79 

                        2009 Evaluation of the DoD Federal Voting Assistance Program
                                       September 27, 2010 Report No. SPO-2010-004

Appendix I – Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Personnel and Readiness
Director, Federal Voting Assistance Program
Department of the Army
Inspector General, Department of the Army
Department of the Navy
Naval Inspector General
Inspector General of the Marine Corps
Department of the Air Force
Inspector General, Department of the Air Force
Congressional Committees
Senate Committee on Armed Services
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Armed Services
House Subcommittee on Defense, Committee on Appropriations
House Committee on Oversight and Government Reform




                                            80 

      Inspector General                                                                                             Special Plans & Operations
                 United States Department of Defense                                                                 Provide assessment oversight that addresses priority national security
                                                                                                                     objectives to facilitate informed, timely decision-making by senior
                                                                                                                     leaders of the DOD and the U.S. Congress.
      Vision
         One professional team strengthening the integrity, efficiency,
                   and effectiveness of the Department of Defense                                                    General Information
                               programs and operations.
                                                                                                                       Forward questions or comments concerning this assessment and report and other
       Mission                                                                                                         activities conducted by the Office of Special Plans & Operations to spo@dodig.mil


         Promote integrity, accountability, and improvement of Department                                                                 Deputy Inspector General for Special Plans & Operations


                                                                                                                                                Department of Defense Inspector General


             of Defense personnel, programs and operations to support the
                                                                                                                                                           400 Army Navy Drive


                  Department's mission and serve the public interest.
                                                                                                                                                        Arlington, VA 22202-4704






                                                                                                                                               Visit us at www.dodig.mil


                                                                                                                       DEPARTMENT OF DEFENSE



                                                                                                                       hot line
The Department of Defense Inspector General is an independent, objective agency within the U.S. Department
of Defense that was created by the Inspector General Act of 1978, as amended. DoD IG is dedicated to serving                                                 make a difference   Report                        www.dodig.mil/hotline
the warfighter and the taxpayer by conducting audits, investigations, inspections, and assessments that result in                                                800.424.9098
improvements to the Department. DoD IG provides guidance and recommendations to the Department of                                                                                Fraud, Waste, Mismanagement, Abuse of Authority
                                                                                                                                                                                 Suspected Threats to Homeland Security
Defense and the Congress.                                                                                              Defense Hotline,The Pentagon, Washington, DC 20301-1900   Unauthorized Disclosures of Classified Information
